FLORIDA OFFICE:

DISTRICT OF COLUMBIA OFFICE:

PO Box 540774
Orlando, FL 32854
Tel 407-875-1776
Fax 407-875-0770
www.LC.org

122 C Street NW, Ste 360
Washington, DC 20001
Tel 202-289-1776
Fax 407-875-0770

VIRGINIA OFFICE:
PO Box 11108
Lynchburg, VA 24506
Tel 407-875-1776
Fax 407-875-0770
liberty@LC.org

REPLY TO FLORIDA

April 29, 2020
By Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-983
Colleen Reilly, et al. v. City of Harrisburg, et al.

Dear Mr. Harris:
I am co-counsel for Petitioners, Colleen Reilly and Becky Biter, in the abovereferenced case. Pursuant to Rule 21.4, Petitioners oppose Respondents’ April 28,
2020 letter motion for a second extension of time to file a response to the Petition for
a Writ of Certiorari. The grounds offered by Respondents do not justify the second
extension of time.
The Petition was filed February 3, 2020 and arises from a case Petitioners first
filed in the district court over four years ago, on March 24, 2016. The Petition seeks
review of the second of two opinions issued by the Third Circuit Court of Appeals
concerning the district court’s denial of Petitioners’ motion for a preliminary
injunction, to enjoin the enforcement of a city ordinance that infringes on Petitioners’
rights to Free Speech under the First Amendment, among others.1
Respondents already requested and received one 30-day extension of time to
file their response to the Petition, to April 6, 2020, and used all of the extended time
to file a Waiver advising the Court that Respondents did not intend to file a response.

Petitioners prevailed in their first appeal to the Third Circuit Court of Appeals.
See Reilly v. City of Harrisburg, 858 F.3d 173 (3d Cir. 2017).
1

No. 19-983
Colleen Reilly, et al. v. City of Harrisburg, et al.
April 29, 2020
Page 2
Now that the Court has requested a response to the Petition by May 18, 2020,
Respondents ask the Court for another 30-day extension of time, to June 17, 2020—
over fourth months after the Petition was filed.
Although Petitioners appreciate the circumstances on which Respondents’
motion is based, the second 30-day extension requested is not justified given the
extended time Respondents already used to consider a response (and file a Waiver),
and given the continuing irreparable harm suffered by Petitioners each day during
the four-year pendency of their claims against Respondents.2
Respondents motion should be denied.
Respectfully submitted,
LIBERTY COUNSEL

Roger K. Gannam

c: Frank J. Lavery, Jr., Esq. (by e-mail to: flavery@laverylaw.com)
Maureen M. McBride, Esq. (by e-mail to: mmcbride@lambmcerlane.com)
Mathew D. Staver, Esq. (by e-mail to: court@LC.org)

“The loss of First Amendment freedoms, for even minimal periods of time,
unquestionably constitutes irreparable injury.” Elrod v. Burns, 427 U.S. 347, 373
(1976).
2

